                                 CLOSEOUT OF W3060031




                                -
panelists told him that he was ranked f m t in the competition, and gave him other confidential
details of the panel deliberations. He wished to know the reasons for the declination, given his
high ranking, and what he understood had occurred during the panel deliberations. The PD told
the candidate that it was not c o m t to say that he had been ranked fmt, and it was not
appropriate for h& to receive the type of information he was requesting. The candidate also
called the division director @D), who told him that the panel deliberations and rankings are
confidential information. The DD told the candidate that some panelists had violated the
confidentiality of the delibemtions, a breach of professional ethics, and that he intended to bring
the matter to the attention of the IG.

        OIG sought to evaluate the panel's alleged breach of confidentiality, to determine what
happened, and who was involved. The candidate was contacted by telephone, and informed that
OIG was looking into the handling of his NYI proposal. The candidate expressed his concern
that although he was very highly ranked his proposal had been declined, perhaps because of
factors not specified in the NYI announcement. The candidate claimed that he could not
remember who told him about his ranking.

        The panel members were also contacted by telephone and asked whether they had any
information-about a breach of                       with regard to the ranking of a -candidate
considered for an NYI award on                        Three panelists said that they were unaware
of any breach of confidentiality.                           spoke at greater length, revealing that
panelists differ in their knowledge of and attitudes to confidentiality requirements. For example,
one panelist said that it is quite common for candidates to claim that they know their ranking,
and to try to find about their ranking. Another stated that candidates frequently learn their
rankings, and that the confidentiality of the review process is breached more frequently than one
would expect.

        The OIG inquiry confumed that the candidate had approached at least two panelists
seeking information. However, it was not possible to conclude on the basis of this information
that the candidate actually received information from panelists; he may have guessed at his
ranking. Nor was it possible to determine, if information was leaked, which panelist was
responsible. Therefore, OIG determined that there was not enough evidence to warrant pursuing
these allegations further.
        This case is closed without a finding of misconduct. However, we did send a letter to
the NYI candidate expressing NSF's view that breaches of confidentiality in peer review may
constitute violation of NSF's misconduct in science and engineering regulation (45 C.F.R.
8 689).




Concumnce:




Acting Deputy Assistant Inspector         Assistant Inspector General for Oversight
       General for Oversight




Montgomery K. Fisher
Counsel to the Inspector General




cc:    Assistant Inspector General for Oversight
       Inspector General
      N n s e l to the Inspector General
